Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants
 to the Clark County Sheriff's OfficeVancouver, Washington

GR-60-03-003


May 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of the grants awarded by the Office of Community Oriented Policing Services (COPS) to the Clark County Sheriff's Office (Clark County), Washington.  The purpose of the grants is to enhance community policing.  Clark County was awarded a total of $2,625,000 to hire 33 new officers.
We found Clark County to be in non-compliance with COPS' grant requirements.  We reviewed Clark County's compliance with six essential grant conditions, and found weaknesses in two of the areas we tested:  hiring of officers and local match requirements.  As a result of the deficiencies identified below, we question $510,335 in grant funds received.1

Local-funded officers were transferred to fill COPS-funded positions in lieu of new hires, resulting in questioned costs of $510,335.
Records were not maintained to show the amount, source, or when the local match requirement occurred.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and the definition of questioned costs.